I

NO.

IN THE
SUPREME COURT OF THE UNITED STATES
ZAIRE PAIGE, PETITIONER,
vs.

STEWART ECKERT,
Superintendent, Wende Correctional facility,
and LETITIA JAMES, Attorney-General State of New York,
RESPONDENTS.
PROOF OF SERVICE
I, Richard Joselson, do swear or declare that on this date,
August 12, 2021, as required by Supreme Court Rule 29, I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party to
the above proceeding or that party's counsel, and on every other
person required to be served, by depositing an envelope
containing the above documents in the United States mail
properly addressed to each of them and with first-class postage
prepaid, or by delivery to a third-party commercial carrier for
delivery within 3 calendar days.1

The names and addresses of those served are:
Stewart Eckert, Superintendent Wende Corr. Fac.
3040 Wende Rd., Alden, NY 14004

i

Letitia James, Attorney-General NY State
28 Liberty Street, New York, NY 10005
'

Eric Gonzalez, District Attorney, Kings Co.
Attn: Terrence Heller
350 Jay Street, Brooklyn, NY 11201

!

1 Petitioner is currently housed at Clinton Corr. Fac., 1156 Rt.
374, Dannemora, N.Y., 12929.
i

lr

I declare under penalty of perjury that the foregoing is true
and correct.
Date: August 12, 2021
,\

Richard Joselsfon
Attorney for Petitioner

t

»
i

»

I

